65460


Proposed Rules                                                                                Federal Register
                                                                                              Vol. 66, No. 244


                                                                                              Wednesday, December 19, 2001




This section of the FEDERAL REGISTER             Development Branch, 901 North 5th            Washington, DC, on Monday through
contains notices to the public of the proposed   Street, Kansas City, Kansas 66101.           Friday of each week from 8:00 a.m. to
issuance of rules and regulations. The           FOR FURTHER INFORMATION CONTACT:             4:30 p.m.
purpose of these notices is to give interested
                                                 Wayne Kaiser at (913) 551–7603.              FOR FURTHER INFORMATION CONTACT: Joel
persons an opportunity to participate in the
rule making prior to the adoption of the final   SUPPLEMENTARY INFORMATION: See the           Schaer, (202) 619–0089, OIG
rules.                                           information provided in the direct final     Regulations Officer.
                                                 rule which is located in the rules           SUPPLEMENTARY INFORMATION:
                                                 section of the Federal Register.
ENVIRONMENTAL PROTECTION                                                                      I. Background
                                                   Dated: December 7, 2001.
AGENCY                                           James B. Gulliford,                          A. The OIG Safe Harbor Provisions
40 CFR Part 62                                   Regional Administrator, Region 7.              Section 1128B(b) of the Social
                                                 [FR Doc. 01–31239 Filed 12–18–01; 8:45 am]   Security Act (the Act) (42 U.S.C. 1320a–
[KS 0145–1145; FRL–7120–3]
                                                 BILLING CODE 6560–50–P                       7b(b)) provides criminal penalties for
Approval and Promulgation of State                                                            individuals or entities that knowingly
Plans for Designated Facilities and                                                           and willfully offer, pay, solicit or
Pollutants; Control of Emissions From            DEPARTMENT OF HEALTH AND                     receive remuneration in order to induce
Hospital/Medical/Infectious Waste                HUMAN SERVICES                               or reward business reimbursable under
Incinerators; State of Kansas                                                                 the Federal health care programs. The
                                                 Office of Inspector General                  offense is classified as a felony and is
AGENCY:  Environmental Protection                                                             punishable by fines of up to $25,000
Agency (EPA).                                    42 CFR Part 1001                             and imprisonment for up to 5 years. The
ACTION: Proposed rule.                                                                        OIG may also propose the imposition of
                                                 Solicitation of New Safe Harbors and         civil money penalties, in accordance
SUMMARY:    EPA proposes to approve a            Special Fraud Alerts                         with section 1128A(a)(7) of the Act (42
revision to the state of Kansas’ section         AGENCY: Office of Inspector General          U.S.C. 1320a–7a), or exclusions from the
111(d) plan for controlling emissions            (OIG), HHS.                                  Federal health care programs, in
from existing hospital/medical/                                                               accordance with section 1128(b)(7) of
                                                 ACTION: Notice of intent to develop
infectious waste incinerators.                                                                the Act (42 U.S.C. 1320a–7(b)(7)).
                                                 regulations.
   In the final rules section of the                                                            Since the statute on its face is so
Federal Register, EPA is approving the           SUMMARY: In accordance with section          broad, concern has been expressed for
state’s submittal as a direct final rule         205 of the Health Insurance Portability      many years that some relatively
without prior proposal because the               and Accountability Act of 1996, this         innocuous commercial arrangements
Agency views this as noncontroversial            annual notice solicits proposals and         may be subject to criminal prosecution
and anticipates no relevant adverse              recommendations for developing new           or administrative sanction. In response
comments to this action. A detailed              and modifying existing safe harbor           to the above concern, the Medicare and
rationale for the approval is set forth in       provisions under the anti-kickback           Medicaid Patient and Program
the direct final rule. If no relevant            statute (section 1128B(b) of the Social      Protection Act of 1987, section 14 of
adverse comments are received in                 Security Act), as well as developing new     Public Law 100–93, specifically
response to this action, no further              OIG Special Fraud Alerts.                    required the development and
activity is contemplated in relation to          DATES: To assure consideration, public       promulgation of regulations, the so­
this action. If EPA receives relevant            comments must be delivered to the            called ‘‘safe harbor’’ provisions,
adverse comments, the direct final rule          address provided below by no later than      specifying various payment and
will be withdrawn and all public                 5 p.m. on February 19, 2002.                 business practices which, although
comments received will be addressed in           ADDRESSES: Please mail or deliver your       potentially capable of inducing referrals
a subsequent final rule based on this            written comments to the following            of business reimbursable under the
proposed action. EPA will not institute          address: Office of Inspector General,        Federal health care programs, would not
a second comment period on this action.          Department of Health and Human               be treated as criminal offenses under the
Any parties interested in commenting             Services, Attention: OIG–61–N, Room          anti-kickback statute and would not
on this action should do so at this time.        5246, Cohen Building, 330                    serve as a basis for administrative
Please note that if EPA receives adverse         Independence Avenue, SW.,                    sanctions. The OIG safe harbor
comment on part of this rule and if that         Washington, DC 20201.                        provisions have been developed ‘‘to
part can be severed from the remainder             We do not accept comments by               limit the reach of the statute somewhat
of the rule, EPA may adopt as final              facsimile (FAX) transmission. In             by permitting certain non-abusive
those parts of the rule that are not the         commenting, please refer to file code        arrangements, while encouraging
subject of an adverse comment.                   OIG–61–N. Comments received timely           beneficial and innocuous arrangements’’
DATES: Comments on this proposed                 will be available for public inspection as   (56 FR 35952, July 29, 1991). Health
action must be received in writing by            they are received, generally beginning       care providers and others may
January 18, 2002.                                approximately 3 weeks after publication      voluntarily seek to comply with these
ADDRESSES: Comments may be mailed to             of a document, in Room 5541 of the           provisions so that they have the
Wayne Kaiser, Environmental                      Office of Inspector General at 330           assurance that their business practices
Protection Agency, Air Planning and              Independence Avenue, SW.,                    are not subject to any enforcement
               Federal Register / Vol. 66, No. 244 / Wednesday, December 19, 2001 / Proposed Rules                                65461

action under the anti-kickback statute or   II. Solicitation of Additional New                    • The potential overutilization of the
related administrative authorities.         Recommendations and Proposals                      health care services; and
B. OIG Special Fraud Alerts                    In accordance with the requirements                • The ability of health care facilities
                                            of section 205 of Public Law 104–191,              to provide services in medically
  The OIG has also periodically issued
                                            the OIG last published a Federal                   underserved areas or to medically
Special Fraud Alerts to give continuing
                                            Register solicitation notice for                   underserved populations.
guidance to health care providers with
                                            developing new safe harbors and
respect to practices the OIG finds                                                                In addition, we will also take into
                                            Special Fraud Alerts on December 14,
potentially fraudulent or abusive. The                                                         consideration other factors, including,
                                            2000 (65 FR 78124). As required under
Special Fraud Alerts encourage industry                                                        for example, the existence (or
compliance by giving providers              section 205, a status report of the public
                                            comments received in response to that              nonexistence) of any potential financial
guidance that can be applied to their                                                          benefit to health care professionals or
own businesses. The OIG Special Fraud       notice is set forth in Appendix F to the
                                            OIG’s Semiannual Report covering the               providers that may vary based on their
Alerts are intended for extensive                                                              decisions whether to (1) order a health
distribution directly to the health care    period April 1, 2001 through September,
                                            30, 2001.1 The OIG is not seeking                  care item or service, or (2) arrange for
provider community, as well as those                                                           a referral of health care items or services
charged with administering the Federal      additional public comment on the
                                            proposals listed in Appendix F at this             to a particular practitioner or provider.
health care programs.
                                            time. Rather, this notice seeks                    Criteria for Developing Special Fraud
C. Section 205 of Public Law 104–191        additional recommendations regarding               Alerts
  Section 205 of Public Law 104–191         the development of proposed or
requires the Department to develop and      modified safe harbor regulations and                 In determining whether to issue
publish an annual notice in the Federal     new Special Fraud Alerts beyond those              additional Special Fraud Alerts, we will
Register formally soliciting proposals      summarized in Appendix F to the OIG                also consider whether, and to what
for modifying existing safe harbors to      Semiannual Report referenced above.                extent, the practices that would be
the anti-kickback statute and for           Criteria for Modifying and Establishing            identified in a new Special Fraud Alert
developing new safe harbors and             Safe Harbor Provisions                             may result in any of the consequences
Special Fraud Alerts.                                                                          set forth above, as well as the volume
  In developing safe harbors for a             In accordance with section 205, we
                                            will consider a number of factors in               and frequency of the conduct that
criminal statute, the OIG is required to                                                       would be identified in the Special Fraud
engage in a thorough review of the range    reviewing proposals for new or
                                            modified safe harbor provisions, such as           Alerts.
of factual circumstances that may fall
within the proposed safe harbor subject     the extent to which the proposals would              A detailed explanation of
area so as to uncover potential             effect an increase or decrease in—                 justifications for, or empirical data
opportunities for fraud and abuse. Only        • Access to health care services;               supporting, a suggestion for a safe
then can the OIG determine, in                 • The quality of care services;                 harbor or Special Fraud Alert would be
consultation with the Department of            • Patient freedom of choice among               helpful and should, if possible, be
Justice, whether it can effectively         health care providers;                             included in any response to this
                                               • Competition among health care                 solicitation.
develop regulatory limitations and
                                            providers;
controls that will permit beneficial and       • The cost to Federal health care                 Dated: December 4, 2001.
innocuous arrangements within a             programs;                                          Janet Rehnquist,
subject area while, at the same time,
protecting the Federal health care                                                             Inspector General.

                                              1 The OIG Semiannual Report can be accessed
programs and their beneficiaries from       through the OIG Web site at http://www.dhhs.gov/
                                                                                               [FR Doc. 01–31207 Filed 12–18–01; 8:45 am]

abusive practices.                          oig/semann/index.htm.                              BILLING CODE 4152–01–P
